No. 20-1034
IN THE

Supreme Court of the United States
NARKIS ALIZA GOLAN,
Petitioner,
v.
ISACCO JACKY SAADA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Shailee Diwanji Sharma, a
member of the Bar of this Court, certify that the Brief for Amici Curiae Individuals
and Organizations Advocating for Victims of Domestic Violence* in Support of
Petitioner in the above-captioned case contains 5,793 words, excluding the parts of
the brief that are exempted by Supreme Court Rule 33.1(d).
March 1, 2021

s/Shailee Diwanji Sharma
Shailee Diwanji Sharma
COVINGTON & BURLING LLP
The New York Times Bldg.
620 Eighth Avenue
New York, NY 10018
(212) 841-1000
ssharma@cov.com
Counsel for Amici Curiae

*

Amici curiae are the following organizations and individuals: Sanctuary for Families, Inc., Battered
Mothers Custody Conference, Deborah Epstein, Her Justice Inc., Joan Meier, Lawyers Committee
Against Domestic Violence New York, Legal Momentum, The Women’s Legal Defense and Education
Fund, Leigh Goodmark, Merle Weiner, National Network to End Domestic Violence, Inc., New York
State Coalition Against Domestic Violence Inc., New York Legal Assistance Group Inc., Pathways to
Safety International, and Safe Horizon, Inc.

